BECKER GALLAGHER
Brief s

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Petition for Writ of
Certiorari in Erin Shepherd and Terry Reed v. Angela
Studdard, were sent via Two Day Service to the U.S.
Supreme Court, and 3 copies were sent Two Day
Service and e-mail to the following parties listed
below, this 6th day of November, 2019:
Daniel A. Seward
4510 Chickasaw Road
Memphis, TN 38117
sewardla wfirm@aol.com
(901) 647-5848
Counsel for Respondent
John Marshall Jones
Counsel of Record
E. Lee Whitwell
Shelby County Attorney's Office
160 North Main, Suite 950
Memphis, Tennessee 38103
j ohnm .j ones@shelbycountytn.gov
lee. w hitwell@shelbycountytn.gov
(901) 222-2100
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on November 6, 2019.

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Nata
[seal]

JULIEANNE l<EP.S\~INE_R
Notary Public, State 01.0h\o
My cornrnission Expires
February 21, 2023

